U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 6, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Ramon Hueso v. J. A. Barnhart, Warden
S.Ct. No. 19-1365

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 8, 2020,
and placed on the docket on June 12, 2020. The government’s response is due on July 12, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 12, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

19-1365
HUESO, RAMON
J.A. BARNHART, WARDEN

MATTHEW S. HELLMAN
JENNER & BLOCK LLP
1099 NEW YORK AVENUE, NW
SUITE 900
WASHINGTON , DC 20001-4412
202-639-6000
MHELLMAN@JENNER.COM
SARAH MARIE KONSKY
SIDLEY AUSTIN LLP
ONE SOUTH DEARBORN STREET
CHICAGO, IL 60603
773-834-3190
KONSKY@UCHICAGO.EDU

